Locality Pay
February 7, 2014




                   Report Number: RARC-WP-14-008
                                                                     EXECUTIVE SUMMARY


                                                  Locality Pay
The ongoing debate about the
                                                                           Highlights
comparability of postal employee wages to
their counterparts in the private sector has               Unlike most national employers, the
rarely included discussion of one key                      Postal Service does not adjust wages to
element of the U.S. Postal Service’s wage                  reflect local pay rates or cost-of-living
structure. Private sector companies                        differences.
commonly pay employees based on the
local cost-of-living and labor market                      The rest of the federal government
conditions. As a result, it is well understood             offers “locality pay” — adjusting pay
that someone working in Manhattan, New                     based on local or regional labor
                                                           markets.
York will earn more than someone with an
identical job in Manhattan, Kansas. The                    The Postal Service spends over $30
federal government recognizes this notion                  billion per year on salaries, so how
through well-established locality pay                      those salaries are distributed across
systems for both its white-collar and blue-                regions is an important issue.
collar workers. In fact, the federal
government was already recognizing the                     The Postal Service should consider
importance and necessity of offering                       locality pay as a means of instituting a
wages based on local conditions at least                   more fair system that could save
as early as the Civil War.                                 expenses in some areas and enhance
                                                           the quality and stability of its workforce
                                                           in others.
The Postal Service, however, does not pay
employees based on local labor market       Implementing locality pay would be
conditions. Despite vast regional           challenging, but not impossible, and the
differences in labor markets and costs of   benefits could be significant. Careful
living, the Postal Service pays the same    planning and focused attention will be
wage for the same job regardless of         needed.
location. As a result, postal employees can
be among the highest-paid workers in some areas of the country and among the lowest-
paid workers in other locations.

Paying higher wages than necessary in some locations would drive up the Postal
Service’s costs. Paying below market wages in other locations may make it difficult to
attract and retain a qualified, motivated work force, which may affect service quality. It is
likely this may happen most often in large urban locations and other areas with strong

U.S. Postal Service Office of Inspector General                                             February 7, 2014
                                                       i
RARC-WP-14-008                                                                         Locality Pay



economic growth. As an improving economy reduces the unemployment rate, the
importance of this issue may increase nationwide. Additionally, the work demanded
from the Postal Service is likely to be more complex in the future. It is essential going
forward that the Postal Service continue to be able to attract a skilled work force in high-
cost areas like major cities.

Given the Postal Service’s current financial situation, it is unlikely that it could afford to
implement locality pay in a way that would incur additional costs. Nevertheless, bringing
its pay systems more closely in line with the best practices of the federal government
and the private sector through a locality pay system could substantially improve the
long-term efficiency and value of the Postal Service’s workforce, benefiting all of its
stakeholders.




U.S. Postal Service Office of Inspector General                                    February 7, 2014
                                                  ii
RARC-WP-14-008                                                                                                          Locality Pay



                                                  Table of Contents
Introduction ..................................................................................................................... 1

How the Current Practice Came to Be ............................................................................ 2

Potential Effects of Uniform Nationwide Pay ................................................................... 3

Private Sector Pay Systems ............................................................................................ 6

Federal Pay Systems ...................................................................................................... 7

Benefits of a Locality Pay System ................................................................................. 10

Implementation .............................................................................................................. 10

Conclusion .................................................................................................................... 11




                                                    Appendices
Appendix A              Non-Federal Pay Index, 2012 ............................................................... 12

Appendix B              Distribution of Postal Service Employees by Major Group
                        and Work Region .................................................................................. 13




U.S. Postal Service Office of Inspector General                                                                     February 7, 2014
                                                                 iii
RARC-WP-14-008                                                                                                            Locality Pay



                                                           Tables
Table 1                 Labor Costs for Major Postal Service Employee Categories ................... 1

Table 2                 Comparison of Postal and Non-Postal Wages ........................................ 4

Table 3                 2013 FWS Hourly Wage Rates for Warehouse Workers ........................ 8

Table 4                 2013 FWS Hourly Wage Rates for Electricians ....................................... 8

Table 5                 Non-Federal Pay Index 2012 ................................................................ 12

Table 6                 Postal Service Employee Counts by Major Group and
                        Work Region ......................................................................................... 13

Table 7                 Distribution of Clerks across Local Pay Areas in February
                        2013 ...................................................................................................... 14

Table 8                 Distribution of City Carriers across Local Pay Areas in
                        February 2013 ....................................................................................... 15

Table 9                 Distribution of Mailhandlers across Local Pay Areas in
                        February 2013 ....................................................................................... 16

Table 10                Distribution of Rural Carriers across Local Pay Areas in
                        February 2013 ....................................................................................... 17

Table 11                Distribution of Selected Non-Bargaining Employees across
                        Local Pay Areas in February 2013 ........................................................ 18




U.S. Postal Service Office of Inspector General                                                                       February 7, 2014
                                                                  iv
RARC-WP-14-008                                                                                             Locality Pay




                                                  Locality Pay

Introduction
The price of labor is a critical issue for the Postal Service and its stakeholders. For a
variety of reasons, labor costs comprise an overwhelming majority of the Postal
Service’s total budget — almost 80 percent. 1 The table below summarizes the labor
costs for the major Postal Service employee categories.

                 Table 1: Labor Costs for Major Postal Service Employee Categories

                 Employee Category Name               Salary ($)           Salary and Benefits ($)
                 Clerks                               8.2 billion                 10.7 billion
                 Mailhandlers                         2.6 billion                  3.5 billion
                 City Carriers                        12.0 billion                15.8 billion
                 Rural Carriers                       4.7 billion                  6.1 billion
                 Postmasters and Supervisors          4.4 billion                  5.7 billion
                 Total                                31.9 billion                41.8 billion
                Source: National Payroll Hours Summary Report, September 21, 2012.

Any organization with such a large share of its costs directly tied to labor should ensure
that it has the most efficient and effective wage system possible. We take no position on
how the overall pay of postal employees compares to the private sector. However,
today the Postal Service has a wage system with at least one highly unusual
characteristic. Unlike other federal agencies and the vast majority of private sector
companies, the Postal Service pays the same wage for the same job regardless of
location. This means, for example, that a postal worker in New York City earns the
same amount of money as his or her counterpart in Jefferson City, MO, where housing
costs are 83 percent lower, grocery costs are 33 percent lower, utility costs are 25
percent lower, and transportation costs are 27 percent
lower. 2
                                                                                     Unlike private sector
Both the federal government and employers in the private                             employers, the Postal
sector pay wages based on local market conditions. They                              Service does not pay
pay higher wages in areas where the cost-of-living and local                         wages that reflect
salary markets are high and they pay lower wages in areas                            local pay rates or
where the cost-of-living and local salary markets are low.                           cost-of-living.



1
  The most important of these reasons is that daily delivery of mail to every address in the country is an inherently
labor intensive activity.
2
  CNN Money, “Cost of Living, How Far will my Salary Go in Another City,” http://money.cnn.com/calculator/pf/cost-of-
living/. Viewed on January 9, 2014.



U.S. Postal Service Office of Inspector General                                                        February 7, 2014
                                                         1
RARC-WP-14-008                                                                                                Locality Pay



The Postal Accountability and Enhancement Act of 2006 (PAEA) maintained the Postal
Reorganization Act’s requirement that postal employees receive compensation
comparable to the private sector. 3 Since the Postal Service pays uniform wages across
the country and the private sector pays wages that vary by individual location, no set of
uniform wages could be directly comparable to the private sector.

How the Current Practice Came to Be
As much of America struggled with the turbulent years of the 1960s, the Post Office
Department was contending with upheavals of its own. In addition to heated disputes
over stagnating postal employee wages, many older plants were incapable of handling
a recent spike in mail volume. On top of this, working conditions had deteriorated and
congressional control over postal rates, wages, and operations limited the Post Office
Department’s ability to adapt or reform. In 1967, the Postmaster General warned
Congress that the Post Office Department was in a “race with catastrophe.”4

Frustration over stagnant postal employee wages was threatening to bring the situation
to an early, potentially disastrous, conclusion. Between 1967 and 1969, Congress
provided no real pay increases for postal workers, even
though it had raised its own pay by over 40 percent.               Low wages were
Meanwhile, the Consumer Price Index increased by nearly            among the Post Office
             5                                                     Department’s many
10 percent. Because postal workers everywhere were paid
the same wages, employees located in and around major              problems in the late
cities had an especially difficult time, given the high cost-of-   1960s.
living in those areas. By 1970, full-time postal workers in
New York City trying to support their families had to rely on public assistance, and
postal workers across the nation were eligible for food stamps. 6 Congress responded in
February 1970 by proposing a 5.4 percent increase in all postal wages, but said it would
not enact the increase for several weeks.

Enraged by Congress’s delay, on March 17, 1970, postal carriers of Branch 36 in New
York City immediately voted for a wildcat strike — a strike action taken without the
authorization of union leaders. Over the next few days, members of other local
branches in the city voted to join. 7 On March 23, President Nixon declared a national
emergency and ordered over 18,500 military personnel into 17 New York City Post



3
  “It shall be the policy of the Postal Service to maintain compensation and benefits for all officers and employees on
a standard of comparability to the compensation and benefits paid for comparable levels of work in the private sector
of the economy.” Postal Reorganization Act, 39 U.S.C. 1003.
4
  “Fall in For Mail Call,” Life, volume 68, number 12 (April 3, 1970), p.27.
5
  The Strike that Stunned the Country,” Time, March 30, 1970; and “Consumer Price Index, All Urban Consumers,
U.S. City Average, Base Period 1982-1984=100, Percent Change in Annual Average From 1967 to 1969,” Bureau of
Labor Statistics, http://www.bls.gov/cpi/tables.htm.
6
  Ibid, please see also “Fall in for Mail Call,” Life, p. 28 and “Vincent Sombrotto, Who Led Postal Strike, Dies at 89,”
New York Times, January 16, 2013.
7
  “1970 Postal Strike,” New York Letter Carriers Branch 36, http://www.nylcbr36.org/history.htm.



U.S. Postal Service Office of Inspector General                                                           February 7, 2014
                                                           2
RARC-WP-14-008                                                                                             Locality Pay



Offices to handle the mail. 8 In a televised address to the nation that afternoon, Nixon
expressed sympathy for the postal workers’ situation: “From the time I came to
Congress 23 years ago, I have recognized that the hundreds of thousands of fine
Americans in the mail service, the Post Office Department, are underpaid and they have
other legitimate grievances.” 9 However, Nixon said that calling in the military was a
necessary move to restore essential mail services. 10 He also told the nation that his
administration had been working with the Postmaster General for a year on a solution to
the problem.

The strike quickly spread across the country. By March 24, approximately 200,000
postal workers in 13 states, from Massachusetts to California, either called in sick or
walked off their jobs. The strike lasted only a little more than a week, but negotiations
between Nixon Administration officials and union leaders lasted roughly a month,
eventually resulting in a two-part agreement. 11 The first part was an immediate
6 percent pay raise for all postal workers regardless of location or participation in the
                                   strike. 12 The second part involved the passage of the
  The parties who instituted       Postal Reorganization Act of 1970, which provided
  the 14 percent postal pay        another 8 percent pay raise for all postal workers,
  increase in 1970                 regardless of location. The act also abolished the Post
  overlooked variations in         Office Department, chartering in its place the United
  local labor markets,             States Postal Service as a self-supporting,
  perhaps missing an
                                   independent establishment in the executive branch. 13
    opportunity to institute
    some form of locality pay.
                                  Despite the strikes appearing to show that the workers
                                  in greatest need of pay increases were located in major
cities, the negotiated solution gave equal raises to all postal workers, regardless of
location. Some form of locality pay could have addressed the problems in high-cost
urban areas while providing smaller increases to those in low-cost areas. As the Postal
Service now faces a new financial crisis, its stakeholders have an opportunity to
reconsider this solution and possibly avert a future labor cost and employment crisis.

Potential Effects of Uniform Nationwide Pay
Because wage systems that account for local labor conditions are so common, it can be
difficult at first to recognize the potential problems associated with a system that does
not. At the most basic level, paying wages that are too low in high-cost areas may make

8
  “Nixon Intervenes in Postal Strike,” YouTube video, March 23, 1970,
http://www.youtube.com/watch?v=PMydV2w0uU4; and “Department of the Army Historical Summary: FY 1970,” p.
15, http://www.history.army.mil/books/DAHSUM/1970/chII.htm. See also http://www.gao.gov/products/476703#mt=e-
report and http://www.lawandfreedom.com/site/executive/execorders/Nixon.pdf.
9
  “Nixon Intervenes in Postal Strike,” YouTube video, March 23, 1970,
http://www.youtube.com/watch?v=PMydV2w0uU4.
10
   Smithsonian National Postal Museum, “The 1970 Postal Strike,” Pushing the Envelope, March 17, 2010,
http://postalmuseumblog.si.edu/2010/03/the-1970-postal-strike.html.
11
   Ibid.
12
   Retroactive to late December 1969.
13
   The U.S. Postal Service entered into its first collective bargaining agreement with its employee unions in January
1971.



U.S. Postal Service Office of Inspector General                                                        February 7, 2014
                                                          3
RARC-WP-14-008                                                                                        Locality Pay



it difficult to attract and retain the quality work force necessary to best serve customers.
This also can discourage the movement of knowledgeable, experienced people from
low-cost areas to high-growth, high-cost areas because maintaining the same salary
would result in a significant decline in standard of living. Alternately, paying more than is
required to attract a quality work force in lower-cost areas is an inefficient use of
resources. Table 2 below compares the annual mean wages of selected occupations in
two different areas: Manhattan, New York and Manhattan, Kansas.

                            Table 2: Comparison of Postal and Non-Postal Wages



    EQUAL PAY FOR EQUAL WORK?
    The Postal Service’s uniform wage system can leave some postal employees overpaid
    relative to other workers in their regions, while leaving others underpaid. Pay scales in
    Manhattan, New York, for example, and Manhattan, Kansas differ dramatically — but
    not for Postal Service workers who earn similar salaries in both locations.

                                                     Manhattan,                 Manhattan,
                         Job Category
                                                     New York                    Kansas

                         Postal Carrier                $54,820*                    $51,100

                     Secondary School
                                                       $77,400                     $45,720
                         Teachers

                   Gas Pump Operators†                 $55,100                     $36,120

                       Paralegals/Legal
                                                       $56,450                     $42,260
                         Assistants

                   Accountants/Auditors                $91,240                     $52,640

                       Delivery Service
                                                       $39,640                     $30,840
                            Drivers
                  Source: Bureau of Labor Statistics, “May 2012 Occupation Profiles,”
                  http://www.bls.gov/oes/current/oes_stru.htm.
    *
     Employees in New York City and other high-cost urban areas sometimes accrue more hours of overtime.
    This, rather than base wages, accounts for the slightly higher postal pay in New York.
    †
     SOC 53-7071 Gas Compressor and Gas Pumping Station Operators. Wage information only available at
    state level for this position.




U.S. Postal Service Office of Inspector General                                                   February 7, 2014
                                                            4
RARC-WP-14-008                                                                                            Locality Pay



The United States Postal Service Office of Inspector General (OIG) met with the Postal
Service’s chief human resources officer and his staff on April 30, 2013 to solicit the
Postal Service’s views on locality pay and to ask for related information on labor quality
and employee recruitment. The Postal Service told the OIG that it has had little problem
filling positions, especially in this time of elevated unemployment. However, the recent
mail backups in the northwest North Dakota town of Williston have already been linked
to the loss of experienced employees and understaffing. The area’s competitive oilfield
wages, low unemployment, and high cost-of-living appear to be to blame as the town’s
Post Office struggled to fill its open positions before the 2013 holiday rush. 14 As the
economic recovery results in a reduced unemployment rate, this type of crisis could be
repeated elsewhere. Skilled postal employees in other high-cost locations could leave
the Postal Service to seek jobs that offer higher pay. While it is likely that strong
employee benefits may have suppressed turnover among postal employees to date,
proposals to reduce these benefits could eliminate this advantage.
Representatives from the National Association of Postal Supervisors (NAPS) have
noted another troubling consequence of the Postal Service’s national wage system:
experienced and effective postal supervisors often resist pressure to relocate to high-
cost areas. In fact, NAPS said many valuable supervisors and employees seek
relocation to low-cost areas. 15 On an individual level, this weakens incentives for career
advancement. On an organizational level, this undermines the effectiveness and
productivity of the workforce in high-cost areas and forces facilities there to hire
unproven and inexperienced applicants more often. Additionally, the high cost-of-living
in these areas is often associated with strong economic performance. As strong
economic performance in a region leads to increased mail volume from that region, the
postal facilities in these regions are vital to the Postal Service. 16 Uniform national pay
may be harming retention and advancement of quality workers in high-cost areas more
than postal management has allowed.

History of Impact on Federal Workforce

As mentioned earlier, the federal government noted the issues with a uniform pay
system at least as early as the Civil War. However, there have been periods in which
the federal government paid some of its employees at uniform national rates. In the late
1980s, the federal government maintained uniform national pay for its white-collar
workforce, directly leading to problems with the recruitment, hiring, and retention of
qualified employees. These problems were especially dire in a few major metropolitan
areas where recruiting qualified white-collar workers had become virtually impossible.
According to one study, “In the high pay areas like New York and Los Angeles the
number of vacancies in some offices threatened to disrupt agency operations... [and]


14
   “Mail backed up in North Dakota oil boom town,” Associated Press, November 26, 2013,
http://www.businessweek.com/ap/2013-11-26/mail-backed-up-in-north-dakota-oil-boom-town.
15
   NAPS, in discussion with the authors, June 5, 2013.
16
   “Mail Goes Where the Money Is: A Study of Rural Mail Delivery in the United States,” Marshall Kolin and Edward J.
Smith, 1999.



U.S. Postal Service Office of Inspector General                                                       February 7, 2014
                                                         5
RARC-WP-14-008                                                                                            Locality Pay



officials in these areas referred to the local situation as a crisis.” 17 This crisis was later
addressed with the development of the GS system.

Private Sector Pay Systems
Private sector employers typically pay wages that reflect regional differences in cost-of-
living and prevailing market wages. Accordingly, private-sector employees with the
same skills and experience and with the same jobs in different parts of the country
generally earn different pay, more in areas with higher cost-of-living or prevailing wages,
and less in areas where these are less.

                                 While paying wages consistent with local labor markets is
 Some national private           common practice, for national companies with large
 sector employers have           unions, this can be more complicated. For this reason,
 successfully worked             some private-sector companies with national presence
 with their unions to            have negotiated uniform wage systems with their
 include locality pay in         employees, including in the automotive and aerospace
 labor contracts.                manufacturing industries. However, such industries can
                                 choose to locate their facilities in areas with low labor
costs. They do not have the Postal Service’s fully nationwide presence and can be less
sensitive to regional variations in labor costs.

In discussions with the OIG, the Postal Service highlighted the problems of developing a
locality pay agreement with its unions. 18 However, this is doable, and it is being done in
the private sector. There are numerous examples of major companies with national
workforces bargaining with their unions to include some forms of locality pay. AT&T,
Kroger, United Parcel Service (UPS), and the Pipeline Contractors Association have all
negotiated agreements that provide for different levels of pay in different locations, as
discussed below.

AT&T bargains collectively with the Communications Workers of America (CWA) and
the International Brotherhood of Electrical Workers (IBEW). AT&T conducts negotiations
with CWA at the CWA district level; consequently, different geographic groups of AT&T
unionized employees work under different contracts. Thus, the bargaining structure for
AT&T and the CWA not only allows for wage differences between the different CWA
districts, but also explicitly incorporates wage variations within a district.

Kroger, a nationwide grocery chain, bargains collectively with a number of local unions
affiliated with several national unions. Currently, Kroger and its unions have
approximately 300 collective bargaining agreements in place. During 2013, Kroger has
negotiated with unions in Indianapolis, Houston, Seattle, Dallas, and Cincinnati. By


17
   Howard Risher and Charles Fay, “Federal Pay Reform: A Response to an Emerging Crisis,” Public Personnel
Management, volume 20, number 3 (Fall 1991), p. 387.
18
   (Chief Human Resources Officer and Executive Vice President, United States Postal Service), in discussion with
the authors, April 30, 2013.



U.S. Postal Service Office of Inspector General                                                       February 7, 2014
                                                         6
RARC-WP-14-008                                                                                      Locality Pay



negotiating at the local level, the collective bargaining agreements can reflect the labor
market conditions of those localities.

UPS negotiates nationally with the International Brotherhood of Teamsters. Their
current national agreement contains a national wage schedule for employees, but the
national contract specifies that the supplementary agreements with Teamster locals in
different parts of the United States can override the nationally bargained contract,
including the wage structure. In the contract of 2007, UPS negotiated supplemental
contracts with a number of the Teamster locals. The supplemental contract with the
Northern California locals, for example, contains a schedule of job descriptions and
corresponding rates of pay different from national contracts. The locality pay
adjustments in these schedules are small, but nonetheless acknowledge the regional
differences in the UPS labor pool.

The national collective bargaining agreement between the Pipeline Contractors
Association (PCA), a trade group formed to handle labor relations in the petroleum and
pipeline construction industries, and four of the industry’s unions is particularly notable.
The negotiated contracts have established wage scales that differ not only by state, but
also by zones within many states. This demonstrates that a national agreement on
localized wage areas is possible.

To summarize, there are two basic approaches to national bargaining over locality pay.
In the first and significantly more complicated approach, national employers negotiate
directly with individual locals or districts of national unions, making it possible to obtain
labor agreements that reflect local labor market conditions. In the second, more simple
approach, national employers and unions come to a single agreement to assign
different wage rates for different areas of the country based on well-established and
commonly used wage indices.

Federal Pay Systems
Blue-Collar                                                                    The federal government’s
                                                                               own research indicates
The federal government factors in locality pay when
                                                                               that federal pay levels
determining the salaries for both its blue-collar and                          should be comparable
white-collar workers. Congress enacted the first                               with the private sector,
comprehensive nationwide approach to determining                               and this requires locality
locality pay for federal blue-collar workers in 1972 with                      pay.
the Federal Wage System (FWS).

The goal of the FWS is to ensure that the pay of federal blue-collar workers is
comparable to private sector pay in each local wage area. 19 It does this through surveys
and statistical studies of local prevailing wages. There are 132 different wage areas in

19
   Department of Defense, Defense Civilian Personnel Advisory Service, “History of Wage,”
http://www.cpms.osd.mil/Subpage/Wage/HistoryOfWage/.



U.S. Postal Service Office of Inspector General                                                 February 7, 2014
                                                        7
RARC-WP-14-008                                                                                       Locality Pay



the United States under the FWS, allowing for a wide spectrum of pay for similar jobs in
different wages areas.

Tables 3 and 4 below show a comparison of the hourly wages for warehouse workers
and electricians with six years of experience in different locations. 20 Because three of
these locations are usually considered high-cost (San Francisco, New York City, and
Boston) and three are usually considered low-cost (Oklahoma City, Montana, and
southern Missouri), these tables help us see how much prevailing private sector pay
influences the wages workers earn for doing the same job. A worker in San Francisco,
for example, will earn much higher wages than a worker with the same job would earn
in southern Missouri.

                     Table 3: 2013 FWS Hourly Wage Rates for Warehouse Workers
                                                                         % of Southern Missouri
           FWS Wage Area                          FWS Hourly Wage Rate
                                                                         FWS Hourly Wage Rate
             San Francisco                               $24.45                  143%
             New York City                               $23.02                      135%
                   Boston                                $20.76                      121%
             Oklahoma City                               $20.08                      117%
                 Montana                                 $19.81                      116%
          Southern Missouri                              $17.09                      100%
     Source: 2013 Federal Wage System Salary Schedules.

                            Table 4: 2013 FWS Hourly Wage Rates for Electricians
                                                                         % of Southern Missouri
           FWS Wage Area                          FWS Hourly Wage Rate
                                                                         FWS Hourly Wage Rate
             San Francisco                               $33.46                     141%
                  Boston                                 $29.71                     125%
                 Montana                                 $28.53                     120%
             New York City                               $26.79                     113%
            Oklahoma City                                $26.22                     110%
         Southern Missouri                               $23.79                     100%
     Source: 2013 Federal Wage System Salary Schedules.

White-Collar

During the federal government’s period of difficulty with white-collar employee
recruitment and retention in the 1980s, the General Accounting Office (GAO) examined
the federal government’s employee pay systems. In 1989, GAO confirmed its findings
20
 Office of Personnel Management, “Fact Sheet:
Federal Wage System,” http://www.opm.gov/policy-data-oversight/pay-leave/pay-systems/federal-wage-system/facts-
about-the-federal-wage-system/.



U.S. Postal Service Office of Inspector General                                                  February 7, 2014
                                                              8
RARC-WP-14-008                                                                                                    Locality Pay



before the House Government Operations Committee, specifically citing a relationship
between cost-of-living and employee retention. Its research indicated that federal
employees in high-cost areas quit their jobs at rates over twice as high as employees in
low-cost areas. 21

In the same year, the Office of Personnel Management (OPM) undertook a major
project exploring the feasibility of converting the General Schedule (GS) scale into a
“market-sensitive” pay system. 22 The project included a review of previous federal
studies of making such a conversion. Those studies shared two findings:

          A uniform national salary schedule results in overpaying employees in some
           locations and underpaying them in others.

          Federal pay levels should be comparable with prevailing levels in the private
           sector. 23

With the passage of the Federal Employees Pay Comparability Act in 1990, the revised
GS scale established local salary schedules incorporating locality pay. The salary tables
are intended to be comparable to those of non-federal employees in the same locality
with similar experience and jobs. Locality pay formally took effect for GS employees in
1994 and remains a standard part of the federal white-collar pay system to this day. 24

Currently the GS includes locality pay for 34 areas around the country, 33 of which are
specific geographic areas of varying size — some defined as metropolitan areas, others
extending beyond metropolitan areas, and still others covering entire states. 25 The GS
designated the 34th locality as the “Rest of the United States” which acts as a base. The
processes for determining GS scale base pay and locality adjustments are highly
technical and outside the scope of this paper. However, like FWS, it factors in surveys
of non-federal pay in each wage area. Please see Appendix A for a summary of the
non-federal pay index for fiscal year (FY) 2012. This forms the basis for the current GS
locality pay system for white-collar federal workers. 26




21
    U.S. General Accounting Office, Locality Pay for Federal Employees, July 26, 1989, GAO/T-GGD-89-27. Please
note that the agency is now known as the U.S. Government Accountability Office. The House Government
Operations Committee is now known as the House Committee on Oversight and Government Reform.
22
    U.S. Office of Personnel Management and the Wyatt Company, Study of Federal Employee Locality Pay, July
1989, p. 2.
23
   Ibid, pp. 3-9.
24
    Office of Personnel Management, “Federal Employees Comparability Act of 1990,”
http://archive.opm.gov/feddata/html/paystructure/2004/fepca1990.asp.
25
    In its most recent report, the President’s Pay Agent proposed the identification of 12 additional locations for locality-
based pay adjustments starting in January 2014. Table 4 in Appendix A includes both the 34 current and 12 proposed
local pay areas from the May 7, 2013 report.
26
    Note that the recommended GS locality pay adjustments have not been made in some years, thus salaries
currently in effect for white-collar federal employees do not fully include the non-federal wage index shown in
Appendix A. As such, federal white-collar employees in high-cost areas are currently paid relatively less than the
regional indices would indicate.



U.S. Postal Service Office of Inspector General                                                               February 7, 2014
                                                             9
RARC-WP-14-008                                                                        Locality Pay



Benefits of a Locality Pay System
Implementing a system of locality pay could have numerous benefits for the Postal
Service, its stakeholders, and the entire country:

          Locality pay would allow the Postal Service to more fairly treat workers in high-
           cost areas. Right now, postal workers in high-cost areas are underpaid relative to
           postal workers in low-cost areas for doing the same work.

          Offering pay comparable to the private sector in urban areas and other high-cost
           areas will strengthen the Postal Service’s ability to recruit and retain a skilled
           workforce. As discussed previously, employee retention and the subsequent mail
           back-ups are already problems in Williston, North Dakota, an area with high local
           wages, high cost-of-living, and a low unemployment rate. As an improving
           economy reduces the unemployment rate nationally, locality pay may become
           increasingly necessary to maintain an effective workforce in all areas of the
           country. To the extent that benefits become more similar to the private sector
           over time, this will only become more important.

          Offering pay comparable to the private sector in low-cost areas could reduce the
           Postal Service’s wage expenses in those areas over time and as employees
           retire. As prevailing wages are significantly lower in these areas, the Postal
           Service does not need to pay higher wages than necessary to recruit quality
           employees in those localities.

Implementation
It is clear that locality pay could have significant benefits for the Postal Service and its
stakeholders. Despite this, in discussions with the OIG, the Postal Service has made
the reasonable statement that making such changes in practice could be difficult.
Implementation would likely require overcoming a number of complications and
obstacles. That said, other national employers have made similar changes. The Postal
Service can learn from numerous past examples in the private and public sectors,
including the federal government’s own implementation of locality pay.

Stakeholders must recognize that the Postal Service negotiates pay with its unions and
engages in discussions on pay with its management associations. Therefore, any
attempt to institute locality pay must involve these groups. Please see Appendix B for a
summary of how each major employee group at the Postal Service is divided into the
high-cost local pay areas and the Rest of US as defined in Appendix A.

The Postal Service could review the process and lessons learned from the introduction
of locality pay for GS (white-collar) and FWS (blue-collar) employees. The Postal
Service could also consider consulting with the President’s Pay Agent, the office
responsible for overseeing locality pay issues for federal white-collar employees.




U.S. Postal Service Office of Inspector General                                   February 7, 2014
                                                  10
RARC-WP-14-008                                                                         Locality Pay



Postal management has valid concerns about how difficult the implementation of locality
pay could be. However, postal management should not let these potential challenges
stand in the way. As was the case in 1970, the immediate need for postal reform
presents a special opportunity to include a system of locality pay within a broad
package of changes.

Conclusion
Currently, the Postal Service is in the midst of a financial crisis just as the Post Office
Department was in crisis for different reasons in the late 1960s. Major reasons for that
earlier crisis were the large growth in mail volume and uncompetitive wages in large
metropolitan areas. Today’s financial crisis grew from the economic slowdown, shifts to
electronic alternatives, and the attendant large drop in mail volume. Now, as was the
case 40 years ago, there is an opportunity to act. However, unlike 40 years ago, the
Postal Service has the chance to prevent a further wage and employee crisis before it
happens. If large numbers of postal employees begin to flee the Postal Service in high-
cost areas beyond the oilfield boomtowns of North Dakota, the Postal Service will be
forced to implement a solution from a crisis position, just as it had to do in 1970.

Given the Postal Service’s current financial situation, it is unlikely that it could afford to
implement locality pay in a way that would incur additional costs. Providing wages more
consistent with local labor markets would not necessarily increase or decrease overall
labor costs. The cost of labor is the largest portion of the Postal Service’s budget, and
this is unlikely to change anytime soon because of the inherently labor intensive nature
of much of the work. As such, it is critical that the Postal Service’s wage system serve
its employees and ratepayers as efficiently as possible.

It is essential that the Postal Service supply the highest quality of customer service at
the right price. It must continue to hire qualified, efficient workers who will provide
excellent service at wages comparable to the wages in their respective fields. Locality
pay would bring the Postal Service’s pay system more closely in line with the best
practices of the private sector and the rest of the federal government. This would make
the Postal Service a more competitive employer, maximize its efficiency, and prepare it
to meet the needs of the future.




U.S. Postal Service Office of Inspector General                                    February 7, 2014
                                                  11
RARC-WP-14-008                                                                                        Locality Pay



Appendix A Non-Federal Pay Index, 2012
This table compares the level of pay in non-federal jobs in local pay areas. For example,
in 2012, a person in San Jose earned 44 percent more than a person with the same
position in the Rest of US. This index is used to help create the locality pay adjustments
for white-collar federal employees under the General Schedule.

                                          Table 5: Non-Federal Pay Index 2012

 Local Pay Area                     Non-Federal Pay Index        Local Pay Area         Non-Federal Pay Index
 San Jose                                         144            Phoenix                        111
 Washington D.C.                                  135            Buffalo                        111
 New York City                                    131            Colorado Springs               111
 San Diego                                        131            Miami                          110
 Los Angeles                                      130            St. Louis                      110
 Alaska                                           125            Harrisburg                     110
 Houston                                          125            Hawaii                         109
 Seattle                                          123            Pittsburgh                     109
 Sacramento                                       123            Austin                         109
 Denver                                           123            Tucson                         109
 Boston                                           122            Raleigh                        109
 Philadelphia                                     122            Dayton                         109
 Hartford                                         121            Milwaukee                      108
 Laredo                                           119            Richmond                       108
 Detroit                                          118            Palm Bay                       107
 Chicago                                          118            Columbus                       107
 Las Vegas                                        116            Charlotte                      107
 Dallas                                           116            Cincinnati                     106
 Minneapolis                                      115            Cleveland                      106
 Huntsville                                       114            Davenport                      106
 Portland                                         114            Albuquerque                    105
 Atlanta                                          113            Indianapolis                   102
 Albany                                           112            Rest of US                     100

Source: Annual Report of The President’s Pay Agent 2012, May 7, 2013, p. 20, Table 2.




U.S. Postal Service Office of Inspector General                                                   February 7, 2014
                                                          12
RARC-WP-14-008                                                                                                Locality Pay




Appendix B Distribution of Postal Service Employees
           by Major Group and Work Region
This table compares the number of Postal Service employees in the High-Cost Local
Pay Areas to the number in the Rest of US by major employee group. 27

        Table 6: Postal Service Employee Counts by Major Group and Work Region
       Postal Service High-Cost Local
                                      Percent of total Rest of US Percent of total
      Employee Group     Pay Areas
             Clerks                        81,206               57%              62,467                43%

        City Carriers                     117,783               64%              66,795                36%

        Mailhandlers                       28,470               72%              11,216                28%

        Rural Carriers                     32,546               31%              72,284                69%

       Non-Bargaining                      21,025               48%              22,606                52%
     Source: USPS On-Roll and Paid Employee Statistics, February 22, 2013 (and Tables 9-13).




27
  Rest of US is defined as all areas of the country not specifically included in one of the 45 high-cost local pay areas
described in Appendix A.



U.S. Postal Service Office of Inspector General                                                           February 7, 2014
                                                           13
RARC-WP-14-008                                                                                               Locality Pay



The table below shows the geographic distribution of Postal Service Clerks across each
local pay area.

              Table 7: Distribution of Clerks across Local Pay Areas in February 2013

                                   Local Pay Area          Count            % of Total
                                   Atlanta                  2,557              1.8%
                                   Boston                   4,563              3.2%
                                   Buffalo                   545               0.4%
                                   Chicago                  5,308              3.7%
                                   Cincinnati               1,079              0.8%
                                   Cleveland                1,364              0.9%
                                   Columbus                 1,049              0.7%
                                   Dallas                   3,077              2.1%
                                   Dayton                    370               0.3%
                                   Denver                   1,763              1.2%
                                   Detroit                  3,102              2.2%
                                   Hartford                 1,348              0.9%
                                   Houston                  1,916              1.3%
                                   Huntsville                183               0.1%
                                   Indianapolis             1,192              0.8%
                                   Los Angeles              7,609              5.3%
                                   Miami                    2,411              1.7%
                                   Milwaukee                1,115              0.8%
                                   Minneapolis              2,158              1.5%
                                   New York                13,741              9.6%
                                   Philadelphia             3,849              2.7%
                                   Phoenix                  1,579              1.1%
                                   Pittsburgh               1,495              1.0%
                                   Portland                 1,219              0.8%
                                   Raleigh                  1,085              0.8%
                                   Richmond                  731               0.5%
                                   Sacramento               1,145              0.8%
                                   San Diego                1,189              0.8%
                                   San Jose                 4,077              2.8%
                                   Seattle                  2,158              1.5%
                                   Washington               5,044              3.5%
                                   Alaska                    455               0.3%
                                   Hawaii                    730               0.5%
                                   Rest of US              62,467             43.5%

                                   Total                  143,673            100.0%
                                 Source: USPS On-Roll and Paid Employee Statistics, February 22, 2013.




U.S. Postal Service Office of Inspector General                                                          February 7, 2014
                                                            14
RARC-WP-14-008                                                                                               Locality Pay



The table below shows the geographic distribution of Postal Service City Carriers
across each local pay area.

         Table 8: Distribution of City Carriers across Local Pay Areas in February 2013

                                   Local Pay Area          Count            % of Total
                                   Atlanta                  2,331              1.3%
                                   Boston                   6,929              3.8%
                                   Buffalo                   978               0.5%
                                   Chicago                  8,041              4.4%
                                   Cincinnati               1,410              0.8%
                                   Cleveland                2,626              1.4%
                                   Columbus                 1,081              0.6%
                                   Dallas                   3,198              1.7%
                                   Dayton                    856               0.5%
                                   Denver                   2,431              1.3%
                                   Detroit                  4,711              2.6%
                                   Hartford                 1,732              0.9%
                                   Houston                  3,446              1.9%
                                   Huntsville                210               0.1%
                                   Indianapolis             1,213              0.7%
                                   Los Angeles             13,285              7.2%
                                   Miami                    4,697              2.5%
                                   Milwaukee                1,404              0.8%
                                   Minneapolis              2,367              1.3%
                                   New York                20,659             11.2%
                                   Philadelphia             5,626              3.0%
                                   Phoenix                  2,219              1.2%
                                   Pittsburgh               1,857              1.0%
                                   Portland                 1,526              0.8%
                                   Raleigh                  1,010              0.5%
                                   Richmond                  514               0.3%
                                   Sacramento               1,378              0.7%
                                   San Diego                2,348              1.3%
                                   San Jose                 7,399              4.0%
                                   Seattle                  2,843              1.5%
                                   Washington               6,250              3.4%
                                   Alaska                    370               0.2%
                                   Hawaii                    838               0.5%
                                   Rest of US              66,795             36.2%

                                   Total                  184,578            100.0%
                                 Source: USPS On-Roll and Paid Employee Statistics, February 22, 2013.




U.S. Postal Service Office of Inspector General                                                          February 7, 2014
                                                            15
RARC-WP-14-008                                                                                               Locality Pay



The table below shows the geographic distribution of Postal Service Mailhandlers
across each local pay area.

                     Table 9: Distribution of Mailhandlers across Local Pay Areas in
                                              February 2013

                                    Local Pay Area         Count            % of Total
                                   Atlanta                   983               2.5%
                                   Boston                   1,431              3.6%
                                   Buffalo                   172               0.4%
                                   Chicago                  2,091              5.3%
                                   Cincinnati                559               1.4%
                                   Cleveland                 391               1.0%
                                   Columbus                  285               0.7%
                                   Dallas                   1,220              3.1%
                                   Dayton                     81               0.2%
                                   Denver                    774               2.0%
                                   Detroit                   690               1.7%
                                   Hartford                  979               2.5%
                                   Houston                   542               1.4%
                                   Huntsville                 35               0.1%
                                   Indianapolis              404               1.0%
                                   Los Angeles              2,396              6.0%
                                   Miami                     661               1.7%
                                   Milwaukee                 397               1.0%
                                   Minneapolis               525               1.3%
                                   New York                 5,465             13.8%
                                   Philadelphia             1,541              3.9%
                                   Phoenix                   441               1.1%
                                   Pittsburgh                787               2.0%
                                   Portland                  313               0.8%
                                   Raleigh                   224               0.6%
                                   Richmond                  337               0.8%
                                   Sacramento                378               1.0%
                                   San Diego                 355               0.9%
                                   San Jose                 1,549              3.9%
                                   Seattle                   651               1.6%
                                   Washington               1,616              4.1%
                                   Alaska                     57               0.1%
                                   Hawaii                    140               0.4%
                                   Rest of US              11,216             28.3%

                                   Total                   39,686            100.0%
                                 Source: USPS On-Roll and Paid Employee Statistics, February 22, 2013.




U.S. Postal Service Office of Inspector General                                                          February 7, 2014
                                                            16
RARC-WP-14-008                                                                                               Locality Pay



The table below shows the geographic distribution of Postal Service Rural Carriers
across each local pay area.

                   Table 10: Distribution of Rural Carriers across Local Pay Areas in
                                              February 2013

                                       Local Pay Area        Count        % of Total
                                       Atlanta               2,567           2.4%
                                       Boston                2,018           1.9%
                                       Buffalo                264            0.3%
                                       Chicago               1,622           1.5%
                                       Cincinnati             632            0.6%
                                       Cleveland              427            0.4%
                                       Columbus               723            0.7%
                                       Dallas                2,374           2.3%
                                       Dayton                 229            0.2%
                                       Denver                 698            0.7%
                                       Detroit               1,311           1.3%
                                       Hartford               771            0.7%
                                       Houston               1,405           1.3%
                                       Huntsville             349            0.3%
                                       Indianapolis           833            0.8%
                                       Los Angeles            978            0.9%
                                       Miami                  431            0.4%
                                       Milwaukee              415            0.4%
                                       Minneapolis           1,312           1.3%
                                       New York              2,126           2.0%
                                       Philadelphia          1,444           1.4%
                                       Phoenix               1,031           1.0%
                                       Pittsburgh             776            0.7%
                                       Portland               618            0.6%
                                       Raleigh               1,103           1.1%
                                       Richmond               598            0.6%
                                       Sacramento             740            0.7%
                                       San Diego              266            0.3%
                                       San Jose               614            0.6%
                                       Seattle                975            0.9%
                                       Washington            2,750           2.6%
                                       Alaska                  20            0.0%
                                       Hawaii                 126            0.1%
                                       Rest of US           72,284          69.0%

                                       Total                104,830         100.0%
                                     Source: USPS On-Roll and Paid Employee Statistics, February 22, 2013.




U.S. Postal Service Office of Inspector General                                                          February 7, 2014
                                                             17
RARC-WP-14-008                                                                                               Locality Pay



The table below shows the geographic distribution of selected Postal Service Non-
Bargaining Employees across each local pay area. 28

 Table 11: Distribution of Selected Non-Bargaining Employees across Local Pay Areas in
                                      February 2013

                                       Local Pay Area          Count       % of Total
                                       Atlanta                  647           1.5%
                                       Boston                  1,264          2.9%
                                       Buffalo                  222           0.5%
                                       Chicago                 1,223          2.8%
                                       Cincinnati               378           0.9%
                                       Cleveland                421           1.0%
                                       Columbus                 244           0.6%
                                       Dallas                   833           1.9%
                                       Dayton                   117           0.3%
                                       Denver                   479           1.1%
                                       Detroit                  663           1.5%
                                       Hartford                 479           1.1%
                                       Houston                  527           1.2%
                                       Huntsville                55           0.1%
                                       Indianapolis             339           0.8%
                                       Los Angeles             1,651          3.8%
                                       Miami                    603           1.4%
                                       Milwaukee                299           0.7%
                                       Minneapolis              561           1.3%
                                       New York                3,458          7.9%
                                       Philadelphia            1,082          2.5%
                                       Phoenix                  398           0.9%
                                       Pittsburgh               498           1.1%
                                       Portland                 309           0.7%
                                       Raleigh                  218           0.5%
                                       Richmond                 237           0.5%
                                       Sacramento               325           0.7%
                                       San Diego                307           0.7%
                                       San Jose                1,024          2.3%
                                       Seattle                  515           1.2%
                                       Washington              1,277          2.9%
                                       Alaska                   195           0.4%
                                       Hawaii                   177           0.4%
                                       Rest of US             22,606         51.8%

                                       Total                  43,631         100.0%
                                     Source: USPS On-Roll and Paid Employee Statistics, February 22, 2013.




28
     Postmasters, OICs, Managers, Supervisors, and PATs.



U.S. Postal Service Office of Inspector General                                                          February 7, 2014
                                                             18
RARC-WP-14-008                                                                            Locality Pay




                                    U.S. Postal Service Office of Inspector General
                                                 1735 N. Lynn Street
                                                 Arlington, VA 22209

                                                  Telephone: 703-248-2100
                                                      www.uspsoig.gov

                                     For media inquiries, contact Agapi Doulaveris
                                             Telephone: 703-248-2286
                                              adoulaveris@uspsoig.gov



U.S. Postal Service Office of Inspector General                                       February 7, 2014
                                                            19
